HHS/OIG-Audit-"Review of National Adoption Information Exchange Grant (90-CO-0796) National Adoption Center Philadelphia, Pennsylvania ,"(A-03-01-00512)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of National Adoption Information Exchange Grant (90-CO-0796) National Adoption Center Philadelphia, Pennsylvania," (A-03-01-00512)
September 6, 2001
Complete
Text of Report is available in PDF format (590 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
From October 1996 through September 2000, the National Adoption Center (NAC) received $2 million in grant funding from
the Administration for Children and Families to establish an Internet National Adoption Information Exchange.  We
found that NAC was able to accomplish all grant objectives and was in compliance with the terms and conditions of the grant
and was capable of managing Federal funds.  However, we found internal control weaknesses related to the lack of segregation
of duties and a bank balance in excess of FDIC coverage.  The NAC stated that the size of its accounting operation
made it impractical to fully segregate accounting functions and the excess balance was an unusual one-time occurrence.